January 7, 2010

JORDAN M. SMALL
VICE PRESIDENT, NETWORK OPERATIONS

SUBJECT: Audit Report – Status Report on the Postal Service’s
         Network Rationalization Initiatives (Report Number EN-AR-10-001)

This report presents the results of our audit of Network Rationalization Initiatives
(Project Number 09XR001EN000). This review is part of a series to evaluate the U. S.
Postal Service’s Network Rationalization1 initiatives. Our objectives were to evaluate
the Postal Service’s progress in streamlining the network since fiscal year (FY) 2005;
and identify the key challenges in the planning, development, and implementation
process. This self-initiated audit addresses operational and strategic risks. See
Appendix A for additional information about this audit.

Conclusion

Between FYs 2005 and 2009, the Postal Service made progress in its effort to
streamline its mail processing and transportation infrastructure; however, management
has been unable to adjust resources to fully offset mail volume declines, resulting in a
deteriorating financial condition. Mail volume decreased by approximately 35 billion
pieces during this period. See Appendix B for our detailed analysis of this topic. In
response, management has:

       Reduced approximately 205.2 million workhours — the equivalent of 117,273
        employees — with the majority in mail processing and customer service
        functions.

       Reduced 37 million highway contract route (HCR) miles (but overall
        transportation expenses increased by $1.5 billion).

       Closed 68 airport mail centers (AMCs) and 12 remote encoding centers (RECs).

       Realigned bulk mail center (BMC) operations with no BMC closures.


1
  The Postal Service has referred to its network redesign as Evolutionary Network Development (END), Network
Integration and Alignment, and Network Rationalization. We use Network Rationalization throughout this report for
consistency.
Status Report on the Postal Service’s Network                                                            EN-AR-10-001
 Rationalization Initiatives


        Consolidated originating mail operations at 13 processing and distribution
         centers (P&DCs) and closed two P&DCs.

While management has taken unprecedented action to reduce costs, additional
opportunities remain to reduce excess capacity in the plant network.

Streamlining the network presents the Postal Service with many challenges in planning,
developing, and implementing rationalization initiatives. The most immediate challenge
is to dramatically reduce costs and eliminate inefficiencies fast enough to enable the
Postal Service to meet its financial obligations, while complying with its Universal
Service Obligation.2 The economic downturn and resulting mail volume declines
continue to complicate this difficult financial situation. Additional challenges include
opposition to infrastructure changes, resistance to First-Class Mail® (FCM) service
downgrades, facilities with long-term leases, workforce inflexibilities, facility data
consistency and reliability, and lack of a comprehensive network plan.

To remain financially viable, the Postal Service must effectively streamline the mail
processing and transportation network and optimize the workforce. 3 The Postal Service
has embarked on a journey of transformational changes. Management, congress,
unions, and stakeholders must work together during this period of rapid change to
ensure network rationalization initiatives have the energy needed to be successful in
spite of challenges.

Area Mail Processing (AMP) Consolidations

The Postal Service has made limited progress in implementing AMP consolidations4 in
the P&DC network. There are 268 P&DCs nationwide and, since FY 2005, the Postal
Service has implemented 13 AMP consolidations. Only two consolidations have
resulted in full facility closures.5 Stakeholder opposition and resistance to
consolidations with FCM service downgrades were the primary factors that delayed or
resulted in the disapproval of AMPs. Another contributing factor is the lack of specific
criteria for identifying consolidation opportunities the Postal Service can consistently
apply nationwide. Additionally, the Postal Service has cancelled some AMPs without
providing their rationale. If management does not consistently apply established criteria
to identify consolidation opportunities, stakeholders may question the credibility of the
process. Development of objective criteria and implementation of a top-down approach
would provide a more consistent and defensible approach to AMP consolidations that

2
  39 U.S.C. 101(a) states, “The Postal Service shall have as its basic function the obligation to provide postal services
to bind the Nation together through the personal, educational, literary, and business correspondence of the people. It
shall provide prompt, reliable, and efficient services to patrons in all areas and shall render postal services to all
communities.”
3
  Suggestions to increase workforce flexibility were included in the OIG report titled Benchmarking Postal Service
Parcel Productivity (Report Number EN-MA-09-002, dated March 31, 2009).
4
  AMP is the consolidation of all originating and/or destinating distribution operations from one or more Postal Service
facilities into other automated processing facilities for the purpose of improving operational efficiency and/or service.
5
  The Marina, CA P&DC closed in 2005 and the Kansas City, KS P&DC closed in 2009.




                                                           2
Status Report on the Postal Service’s Network                                 EN-AR-10-001
 Rationalization Initiatives


may reduce stakeholder resistance, accelerate the AMP consolidation process, and
reduce excess capacity in the P&DC network. See Appendix B for a detailed analysis
of this topic.

We recommend the vice president, Network Operations:

1. Develop and document specific criteria to identify consolidation opportunities in the
   plant network.

2. Develop a periodic (annual) review process using a top-down methodology to
   ensure consistency in identifying consolidation opportunities.

3. Aggressively pursue processing and distribution center and other plant facility
   closures to eliminate excess plant capacity.

Management’s Comments

Management agreed with the findings and recommendations 1 and 2. Management
stated they would have a process in place to review additional consolidation
opportunities and commit to an annual review of potential consolidations prior to the end
of this fiscal year. In addition, management subsequently agreed in separate
correspondence to reevaluate and document the criteria used to identify consolidation
opportunities annually.

Management generally agreed with recommendation 3 and stated they will continue to
assess opportunities for consolidating destinating operations and facility closures, which
are difficult. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. The OIG will assess the
annual review process to identify potential consolidation opportunities to ensure these
changes meet the intent of our recommendations. Management’s corrective action
should resolve the issues identified in the report.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                3
Status Report on the Postal Service’s Network                                EN-AR-10-001
 Rationalization Initiatives



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Robert W. Field
    Frank Neri
    Cynthia F. Mallonee
    Jeffrey C. Williamson
    Sally K. Haring




                                                4
Status Report on the Postal Service’s Network                                                     EN-AR-10-001
 Rationalization Initiatives


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

In 2003, the President’s Commission on the Postal Service (the Commission) found that
the Postal Service had more facilities than it needed and did not use many of them
efficiently. The Commission said inefficient operations and an antiquated network cost
the Postal Service billions of dollars in unnecessary expenses. The Commission also
noted that the Postal Service faced political resistance to closing or consolidating its
facilities, along with restrictive statutory requirements.

As part of their Strategic Transformation Plan, 2006-2010, the Postal Service articulated
an END initiative to improve its processing and transportation network. The charter of
the initiative was to create a flexible logistics network to reduce Postal Service and
customer costs, increase operational effectiveness, and improve consistency of
service.6

On December 20, 2006, President Bush signed the Postal Accountability and
Enhancement Act (Postal Act of 2006)7 into law, encouraging the Postal Service to
continue to streamline its networks. In June 2008, the Postal Service submitted its
network plan to congress, as required by the Postal Act of 2006, for rationalizing its mail
processing and transportation networks. Network rationalization is one of the major
strategies described in the plan and consists of three integrated core elements:

       Completion of the transportation strategy through outsourcing and closure of
        AMC operations.

       Elimination of excess mail processing capacity at Postal Service plants/facilities
        through the consolidation of operations using newly revised AMP guidelines.

       Possible creation of a time-definite surface network (TDSN) that will move the
        distribution and transportation of Standard Mail®, Periodicals, and package mail
        to a supplier network. The Postal Service is currently analyzing the feasibility of
        pursing this option.8

Unprecedented declines in mail volume,9 increased competition with traditional mail
products from the private sector, increased automation and mail processing by mailers,
and shifts in population demographics have resulted in excess capacity in the Postal
Service mail processing infrastructure. These factors — coupled with an aging
6
  The END initiative was discontinued. Subsequently the Network Rationalization strategy was introduced in June
2008 as part of the Postal Service Network Plan.
7
  Public Law 109-435, 120 Stat. 3189, December 20, 2006.
8
  The TDSN initiative was cancelled in February 2009. Subsequently, the Network Distribution Center (NDC) concept
emerged and Phase I implementation began in May 2009. The Postal Service projects it will fully implement the NDC
concept in early FY 2010.
9
  The Postal Service’s mail volume declined by over 25 billion pieces in FY 2009.




                                                       5
Status Report on the Postal Service’s Network                                 EN-AR-10-001
 Rationalization Initiatives


processing infrastructure and network redundancies — make operating efficiently
difficult. Management has recognized the need for a comprehensive redesign of its
distribution and transportation network.

The Postal Service has experienced significant productivity improvement in mail
processing as a result of automating processing operations via letter mail automation,
flat mail technology, package processing, and material handling. The Postal Service
plans to continue these improvements as they consolidate operations and facilities,
compress tours, and ensure the network operates efficiently and is aligned with the
changing workload and environment. Management is also identifying opportunities to
eliminate Sunday and holiday transportation and unnecessary highway contracts and
postal vehicle service routes.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to evaluate the Postal Service’s progress in streamlining the
network since FY 2005 and identify key challenges in the planning, development, and
implementation process. To accomplish our objectives we:

       Interviewed management to determine the status of network streamlining
        initiatives and cost-saving efforts for AMC, AMP, NDC and REC networks.

       Reviewed published Postal Service reports from FYs 2005 through 2009 to
        obtain information on network rationalization initiatives.

       Reviewed Postal Service databases to determine the status of facilities.

       Compared updated cost-saving reports to recommendations from past OIG
        reviews.

We obtained the number of facilities from the Postal Service’s Annual Reports;
however, we did not perform analytical procedures to determine the reliability of the
data for the following facility types: Customer Service Facilities, Logistics and
Distribution Centers, Annexes, Surface Transfer Centers, and International Service
Centers.

We conducted this performance audit from January through January 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on October 28, 2009, and
included their comments where appropriate.




                                                6
Status Report on the Postal Service’s Network                                                   EN-AR-10-001
 Rationalization Initiatives


PRIOR AUDIT COVERAGE

                                                Final Report
      Report Title        Report Number             Date                Report Results
 Status Report on the      NO-MA-06-001          03/20/2006    The Postal Service took an
 Evolutionary Network                                          incremental approach to
 Development Initiative                                        streamlining the mail processing
                                                               networks using END as a
                                                               framework. Although this report
                                                               contained no recommendations,
                                                               management provided comments
                                                               and generally agreed with the
                                                               issues discussed.
 Assessment of the         EN-AR-08-007          09/23/2008    The Postal Service realigned the
 Remote Encoding                                               REC network by reducing the
 Center Network                                                number of centers from 55 in
 Consolidation Process                                         FY 1999 to eight by the end of FY
                                                               2007. The savings reported for FY
                                                               2007 were overstated by more than
                                                               $300,000. During our review, we
                                                               verified the reported savings for FY
                                                               2007 were revised as management
                                                               agreed in the report.
 Mail Processing            GAO-07-717           06/21/2007    The Postal Service developed four
 Realignment Efforts                                           initiatives to achieve its overall goal
 Under Way Need Better                                         of reducing costs while maintaining
 Integration and                                               service - AMP consolidations,
 Explanation                                                   regional distribution centers (RDC),
                                                               the flats sequencing system, and
                                                               surface transportation centers.
                                                               However, it is not apparent if these
                                                               initiatives will meet the Postal
                                                               Service’s network realignment
                                                               goals. Management agreed with
                                                               the findings and recommendations.
 Improvements in Data        GAO-08-41           12/10/2007    The Facilities Database (FDB) data
 Would Strengthen                                              we assessed are unreliable and the
 Maintenance and                                               FDB is not used as a centralized
 Alignment of Access to                                        source for facility data as planned.
 Retail Services                                               The FDB does not conform to the
                                                               Postal Service’s goals; specifically,
                                                               it does not include data needed to
                                                               measure performance on managing
                                                               facilities or have the capacity to
                                                               track such data over time.
                                                               Management agreed with two
                                                               recommendations; disagreed with
                                                               three recommendations; and agreed
                                                               in principle to one recommendation.




                                                    7
Status Report on the Postal Service’s Network                                                  EN-AR-10-001
 Rationalization Initiatives


                                                Final Report
     Report Title         Report Number             Date                Report Results
 USPS Has Taken            GAO-08-1022T          07/24/2008    The Postal Service has taken steps
 Steps to Strengthen                                           to address prior recommendations
 Network Realignment                                           to strengthen planning and
 Planning and                                                  accountability for its network
 Accountability and                                            realignment efforts. The Postal
 Improve                                                       Service has developed a network
 Communication                                                 plan that discusses its overall vision
                                                               and goals and the major strategies
                                                               or initiatives for meeting its goals.
                                                               Management action was not
                                                               required.
 Progress Made Toward      GAO-O8-1134R          09/25/2008    The network plan contains limited
 Implementing GAO’s                                            specific information on costs and
 Recommendations to                                            savings attributable to the Postal
 Strengthen Network                                            Service’s various realignment
 Realignment Planning                                          initiatives. Management action was
 and Accountability and                                        not required.
 Improve
 Communication
 Escalating Financial       GAO-09-475T          03/25/2009    The FY 2009 financial condition
 Problems Require                                              continues to deteriorate and
 Major Cost Reductions                                         projections suggest record declines
 to Limit Losses                                               in mail volume by 22.7 billion
                                                               pieces, a net loss of $6.4 billion,
                                                               and an unprecedented cash
                                                               shortfall of $1.5 billion. The Postal
                                                               Service’s most immediate
                                                               challenge is to dramatically reduce
                                                               costs fast enough to meet its
                                                               financial obligations. Management
                                                               generally agreed with the accuracy
                                                               of the statements in the report.
 Network Rightsizing        GAO-09-674T          05/20/2009    The Postal Service’s $5.9 billion
 Needed to Help Keep                                           cost-cutting target for FY 2009 is
 USPS Financially                                              unusually ambitious. However,
 Viable                                                        even if it achieves its
                                                               cost-cutting target for FY 2009, the
                                                               Postal Service projects cash
                                                               shortfalls, because it does not
                                                               expect its cost-cutting efforts and
                                                               rate increases will fully offset the
                                                               impact of mail volume declines and
                                                               other factors that increase costs.
                                                               Management generally agreed with
                                                               the accuracy of the statements in
                                                               the report.




                                                    8
Status Report on the Postal Service’s Network                                                           EN-AR-10-001
 Rationalization Initiatives


                                 APPENDIX B: DETAILED ANALYSIS

Status of Network Rationalization Initiatives

The Postal Service made progress in its effort to streamline its mail processing and
transportation infrastructure; however, management has been unable to adjust
resources to offset mail volume declines, resulting in a deteriorating financial condition.

Mail Volume

Mail volume declined by approximately 35 billion pieces between FYs 2005 and 2009.
All categories of mailing and shipping services experienced volume declines. FY 2009
experienced the largest year-over-year decline of total mail volume since the Postal
Reorganization Act of 1971,10 with total mail volume falling by more than 12 percent.

Figure 1 shows mail volume for a 10-year period. Specifically:

        Mail volume peaked in FY 2006 with 213 billion pieces.
        Mail volume declined by over 9 billion pieces in FY 2008.
        FY 2009 mail volume declined by over 25 billion pieces — its lowest point from
         the last 10 years — to 177 billion pieces.11


                Figure 1: Mail Volume in Billions for FYs 1999 through 2009



                     208      208                         206      212      213      213
            202                        203      202                                           203
                                                                                                       177




           1999     2000      2001     2002     2003     2004     2005     2006      2007     2008     2009


10
   In July 2009, the Government Accountability Office (GAO) added the financial condition of the Postal Service to its
High-Risk List of federal areas in need of transformation. The GAO stated the volume of mail being sent is dropping
substantially, leading to a sizeable decline in revenue.
11
   The difference in Figure 1 from FYs 2008 and 2009 is due to rounding.




                                                          9
   Status Report on the Postal Service’s Network                                                EN-AR-10-001
    Rationalization Initiatives


   Workhour Trends

   The Postal Service decreased total workhours by 205.2 million between FYs 2005 and
   2009, with the largest reductions taking place in FY 2009. Mail processing had the
   largest decrease with an 85 million-workhour reduction.

                       Figure 2: Workhours from FYs 2005 through 2009

                                                                                                    Difference
                                                                                                     Between
  Workhours by Function                                                                             FYs 2005
      (thousands)                   2005            2006         2007        2008        2009       and 2009
City Delivery                      471,071          468,918      462,040     452,288     424,683       (46,388)
Mail Processing                    336,210          332,269      315,825     293,108     251,200       (85,010)
Customer Services and Retail       247,512          246,538      233,791     217,236     190,749       (56,763)
Rural Delivery                     179,549          186,164      189,709     189,950     181,090         1,541
Other - Plant, Operational
Support, and Administrative        228,911          224,840      221,636     220,772     210,303       (18,608)
                      TOTAL:     1,463,253         1,458,729    1,423,001   1,373,354   1,258,025     (205,228)

   Transportation

   Management decreased HCR mileage by 36.7 million miles between FYs 2005 and
   2008; however, overall transportation expenses increased by $1.5 billion during the
   same period primarily due to increased fuel prices. In FY 2009, management reported
   a year-to-date decrease of $935 million (13.4 percent) in transportation costs. The
   lower highway expenses in FY 2009 resulted from decreases in fuel prices. Air
   transportation decreased by $421 million (13.8 percent) compared with the same period
   last year. The decrease resulted from lower fuel costs and volumes.

   Facilities

   The Postal Service decreased the number of mail processing facilities by 78 between
   FYs 2005 and 2009. The majority of reductions were from 68 AMC closures. We found
   discrepancies in Postal Service databases while confirming the number of facilities
   listed and adjusted the number based on discussions with management. Table 1 shows
   the status of facilities.




                                                           10
Status Report on the Postal Service’s Network                                                           EN-AR-10-001
 Rationalization Initiatives



                                      Table 1: Status of Facilities12

                                                                                                 Difference
                                                                                                  between
             Processing Facilities               2005      2006      2007     2008     2009     FYs 05 and 09
      AMC                                            80         77       29      20       12                 (68)
      REC                                            15         12       10       6        3                 (12)
      BMC                                            21         21       21      21       21                       0
      P&DC                                         270         269      269    269       268                   (2)
      Customer Service Centers                     195         195      195    195       195                       0
      Logistics and Distribution Centers             11         11       14      14       14                       3
      Annexes                                        66         66       66      64       61                   (5)
      Surface Transfer Centers                       14         17       14      20       20                       6
      International Service Centers                   5          5       5        5        5                       0
                      Total                        677         673      623    614       599                 (78)

Airport Mail Centers

The Postal Service reduced the number of AMCs from 80 in FY 2005 to 12 at the end of
FY 2009. Management was successful in reducing the AMC network because
stakeholder resistance was minimal. According to the network plan,13 the Postal
Service projects total program savings to be $117 million from eliminating workhours
and facility lease expenses. The U.S. Postal Service OIG plans to validate actual cost
savings in a future review. Table 2 shows the reductions and projected savings
reported from the AMC network consolidations.

     Table 2: Reductions Resulting From AMC Network Consolidations

                                2006          2007               2008            2009              Total
 AMC Reductions                   3            45*                12*              8                68
 Reported /Projected
                                          $39 million          $57 million     $21 million      $117 million
 Savings
*The numbers in Table 1 are from the Annual Report and may differ in Table 2 due to financial accounting timing
differences.

Remote Encoding Centers14

Since 1999, the Postal Service has closed 52 RECs. Management successfully
reduced the REC network because approximately 70 percent of the employees were

12
   We did not perform analytical procedures to validate the number of customer service facilities, logistics and
distribution centers, annexes, surface transfer centers, and international service centers.
13
   Postal Accountability and Enhancement Act, Section 302, Network Plan, dated June 2008.
14
   The Postal Service established RECs to apply address barcodes on letters the automated equipment in mail
processing plants could not read.




                                                          11
Status Report on the Postal Service’s Network                                                            EN-AR-10-001
 Rationalization Initiatives


temporary, the physical location of the sites was insignificant, the RECs were planned
as temporary facilities, and there was minimal stakeholder resistance. In April 2009, the
Postal Service announced the closing of one additional center by 2010. Table 3 shows
the existing number of REC facilities.

                                   Table 3: Number of Existing RECs

                                                          1999                2007              2009
           RECs                                            55                  8*                 3
           Scheduled Closings                                                                    1
           Savings from Closure                                $6.8 million**              $3.5 million***
           Total Savings                                             $ 10.3 million
             * The numbers in Table 1 are from the Annual Report and may differ in Table 3 due to financial
               accounting timing differences.
            ** Savings realized for FYs 2006 to 2007 REC closures.
           *** Savings available as of August 13, 2009, for two of the three FY 2009 REC closures.

Network Distribution Center formerly Bulk Mail Center (BMC)15

The Postal Service proposed several initiatives between FYs 2005 and 2008 to
transform the BMC network; however, no initiative progressed to the implementation
phase. As a result, 21 facilities remain in the plant network although management
made changes in their operations. In FY 2009, management began an initiative to
streamline transportation associated with the NDCs. We will assess the effectiveness
of the initiative in a series of NDC activation reviews. BMC costs16 were more than $9
billion from FYs 2005 through 2009; however, annual costs have declined more than
$150 million from FYs 2006 through 2009. Table 4 shows the annual cost of the BMC
network from FYs 2005 through 2009.

                             Table 4: Annual Cost of BMC Network
                                                                                                          2005 – 2009
      2005                 2006                 2007                2008                 2009              Total Cost
 $1,785,261,485       $1,871,054,359       $1,857,254,472      $1,830,980,220       $1,721,009,914       $9,065,560,450

                                                     2006-2009 Cost Decline                                $150,044,445

Although there were several proposals to streamline the BMC network between FYs
2005 and 2008, it was not until FY 2009 that a BMC streamlining initiative progressed
beyond planning to implementation. The following provides a description of the three
BMC initiatives pursued:



15
   Effective August 1, 2009, BMCs were renamed NDCs. By using three tiers of consolidation, these centers
consolidate the processing of originating mail into fewer sites to achieve greater operational efficiency and reduce
transportation costs while expanding the surface transportation reach for more products.
16
   Total costs from activity-based costing.




                                                          12
Status Report on the Postal Service’s Network                                    EN-AR-10-001
 Rationalization Initiatives


       Regional Distribution Center (RDC)

        In February 2006, the Postal Service developed the RDC concept that would
        involve renaming and reconfiguring various regional processing hubs into RDCs,
        replacing BMCs, and integrating them with other transportation hubs.
        Management projected the creation of 28 to 100 RDCs nationwide. However,
        management suspended further work on the RDC concept because of concerns
        the initiative would not generate the benefits originally anticipated. Instead, the
        Postal Service initiated other studies to examine the feasibility of contracting out
        parts of the BMC network. The TDSN initiative replaced the RDC plan.

       Time-Definite Surface Network (TDSN)

        In February 2007, management developed a proposal to outsource BMC
        operations. Management issued a draft request for proposal in July 2008.
        Because of the large drop in BMC network product volume, the Postal Service
        could not project volumes for the statement of work. Thus, in February 2009,
        management decided to terminate this initiative and re-engineer product flows
        through the BMC network.

       Network Distribution Center (NDC)

        In March 2009, the Postal Service announced plans to undertake a significant
        transformation of the entire BMC network. Under the NDC concept, the Postal
        Service transformed the current BMCs into NDCs under three tier groups and
        with some different equipment, functions, and mail flows than the former BMC
        network. Management began phase I site activation in the northeast region and
        plans to complete activation nationwide by April 2010.

Area Mail Processing Initiative

The Postal Service has made limited progress in implementing AMP consolidations in
the P&DC network. Management uses both a bottom-up and top-down approach for
identifying AMP consolidation candidates. However, most of the AMP proposals are
generated using the bottom-up approach and result in partial consolidations of
originating mail that do not result in facility closures. Developing objective criteria and
implementing an annual top-down approach would provide a more consistent and
defensible approach to AMP consolidations, which may reduce stakeholder resistance
and accelerate the AMP consolidation process. Table 5 shows the AMP status as of
September 30, 2009.




                                                13
Status Report on the Postal Service’s Network                                                          EN-AR-10-001
 Rationalization Initiatives


                   Table 5: Current AMP Status as of September 30, 2009

      Number of                                                     Annual Projected/Potential/Lost
      Locations           AMP Consolidation Status                        Potential Savings17
         13             Implemented                                $31,157,068 Projected Savings
         16             Approved –                                 $44,536,799 Projected Savings
                        Implementation not complete
            30          Active in review process                   $36,790,454 Potential Savings
            39          Canceled                                   $17,986,974 Lost Potential Savings

The Postal Service uses AMPs to eliminate excess capacity, increase efficiency, and
better use resources in the P&DC network. There are 268 P&DCs nationwide and since
FY 2005, the Postal Service has initiated 98 AMP studies. However, it has
implemented 13 and only two consolidations have resulted in a full facility closure.18
Management is constantly reviewing and revising AMPs because of changing
workloads, integration with other initiatives, and other factors. Currently, management
plans to consider 89 additional initiatives. Figure 3 shows the status of AMPs as of
September 30, 2009.

                                  Figure 3: Status of AMP Initiatives




Consolidations are among the most controversial facility changes and can generate
enormous stakeholder resistance. Stakeholder resistance led to congressional
opposition to six AMP consolidations in the Consolidated Appropriations Act for
FY 2008. The resistance resulted in potential lost savings of approximately $14 million
annually.19 Other factors that may have contributed to limited consolidations include a

17
   Savings were unavailable for 11 of the 30 proposals in the Active in Review Process stage and 23 of the
39 canceled proposals.
18
   The Marina, CA P&DC closed July 8, 2005, and the Kansas City, KS P&DF closed July 1, 2009.
19
   The Postal Service halted consolidations in Sioux City, IA; Detroit/Flint, MI; Bronx, NY; Aberdeen, SD; and Canton,
OH; and later cancelled the Sioux City, Aberdeen, and Bronx consolidations.




                                                          14
Status Report on the Postal Service’s Network                                             EN-AR-10-001
 Rationalization Initiatives


$1 million minimum savings threshold and reluctance to implement consolidations that
cross state lines. See Appendix C for detailed status analysis of AMP initiatives.

Challenges

Streamlining the network presents the Postal Service with many challenges. The most
immediate challenge is to dramatically reduce costs and eliminate inefficiencies fast
enough to meet its financial obligations, while complying with its Universal Service
Obligation. As mail volume declines, excess capacity grows in various components of
the plant network. The Postal Service has initiated various initiatives to reduce excess
capacity, however, additional opportunities remain. Consolidating mail processing
operations and closing unneeded plants is controversial, but necessary because of
declining mail volume and growing deficits. The following are challenges associated
with optimizing the infrastructure and workforce and managing the streamlining process.

          Stakeholder opposition to infrastructure changes continues to impact the network
           streamlining process. Increased transparency may facilitate the process.

          Resistance to implementing consolidations that result in FCM service
           downgrades. Cost-reduction strategies that result in limited FCM service
           downgrades should be reviewed.

          Facilities with long-term leases (some without termination clauses) are another
           challenge in the network streamlining process. Of the 268 P&DCs, 10 are leased
           properties that will not expire for more than 2 years.

          Workforce flexibility in the Postal Service, defined by the collective-bargaining
           agreements with its unions, is limited. The agreements were negotiated while
           our economy was growing, while Postal Service productivity was increasing, and
           while finances were strong. Contracts with the two unions20 that represent
           almost 75 percent of career employees expire in late 2010 and late 2011 and
           could provide opportunities to optimize the workforce.

          Facility information in the facility database is inconsistent with facility information
           reported in the United States Postal Service Annual Report 2008. The Postal
           Service should increase controls to improve the reliability of the facility database.

          The network plan contains limited specific information on the cost and savings
           attributable to the Postal Service’s various realignment initiatives. The Postal
           Service should ensure there is an adequate process for capturing and retaining
           support for project savings.



20
     The American Postal Workers Union and the National Association of Letter Carriers.




                                                          15
            Status Report on the Postal Service’s Network                                                      EN-AR-10-001
             Rationalization Initiatives


                     APPENDIX C: AMP INITIATIVES (October 1, 2005–September 30, 2009)21


     Area          Losing Facility     State        Gaining Facility        State   Implemented   Approved   Active   Canceled
1    WE     Aberdeen CSMPC              SD     Dakotas Central P&DC         SD                                           X
2    SW     Alamogordo PO               NM     El Paso P&DC                 TX                                           X
3    SE     Athens CSPMC                GA     North Metro P&DC             GA                       X
4    SW     Batesville PO               AR     Little Rock P&DC             AR                                           X
5    SW     Beaumont P&DF               TX     Houston P&DC                 TX                                           X
6    NE     Binghamton P&DF             NY     Syracuse P&DC                NY                       X
7    GL     Bloomington P&DC            IN     Indianapolis P&DC            IN                                 X
8    EA     Bowling Green P&DF          KY     Nashville P&DC               TN                                 X
9    NE     Bridgeport P&DF             CT     Stamford P&DC                CT          X
10   EA     Bristol P&DF               VA      Johnson City P&DF            TN                                 X
11   NY     Bronx P&DF                  NY     Morgan P&DC                  NY                                           X
12   SW     Bryan PO                    TX     North Houston P&DC           TX                                           X
                                               White River Junction
13   NE     Burlington P&DF             VT     P&DC                         VT                                           X
14   EA     Canton P&DC                 OH     Akron P&DC                   OH          X
15   NE     Cape Cod P&DF               MA     Brockton P&DC                MA                       X
16   GL     Carbondale PO               IL     St. Louis P&DC               MO                                           X
17   WE     Carroll CSMPC               IA     Des Moines P&DC              IA                                           X
18   GL     Centralia PO                IL     Saint Louis P&DC             MO                                           X
19   CM     Charlottesville P&DF        VA     Richmond P&DC                VA                                 X
20   CM     Cumberland Main PO          MD     Frederick P&DF               MD                                           X
21   SW     Dallas P&DC                 TX     North Texas P&DC             TX                                 X
22   SE     Daytona Beach P&DF          FL     Mid-Florida P&DC             FL                                           X
23   GL     Detroit P&DC                MI     Michigan Metroplex P&DC      MI                       X
24   CM     Dulles P&DC                 VA     Northern Virginia P&DC       VA                                 X
25   GL     Flint P&DC                  MI     Michigan Metroplex P&DC      MI                       X
26   GL     Fox Valley P&DC             IL     South Suburban P&DC          IL                                           X
27   CM     Frederick P&DC              MD     Suburban P&DC                MD                                 X
28   GL     Gaylord Main PO             MI     Traverse City P&DC           MI                                           X
            Glenwood Springs
29   WE     CSMPC                       CO     Grand Junction CSMPC         CO                                           X
30   GL     Green Bay P&DC              WI     Oshkosh P&DC                 WI                                 X
31   EA     Greensburg PO               PA     Pittsburgh P&DC              PA          X
32   SE     Hattiesburg CSMPC           MS     Gulfport P&DC                MS                                           X
33   WE     Helena CSMPC                MT     Great Falls CSMPC            MT                                           X
34   CM     Hickory P&DF                NC     Greensboro P&DC              NC                                 X
35   WE     Hutchinson CSMPC            KS     Wichita P&DC                 KS                                           X
                                               Santa Clarita P&DC &
36   PA     Industry P&DC               CA     Santa Ana P&DC               CA                                           X
37   PA     Industry P&DC               CA     Santa Ana P&DC               CA                                 X
38   SE     Jackson CSMPC               TN     Memphis P&DC                 TN                                           X
39   GL     Kalamazoo P&DC              MI     Grand Rapids P&DC            MI                                 X
40   WE     Kansas City P&DC            KS     Kansas City P&DC             MO          X
                                               Dominick V Daniels P&DC
41   NY     Kilmer P&DC                 NJ     & Trenton P&DCs               NJ                                X

            21
                 Active column indicates the AMP has not been approved.




                                                                       16
            Status Report on the Postal Service’s Network                                                  EN-AR-10-001
             Rationalization Initiatives



     Area       Losing Facility    State        Gaining Facility        State   Implemented   Approved   Active   Canceled
42   EA     Kinston P&DF            NC     Fayetteville P&DC            NC                                 X
43   WE     La Crosse CSMPC         WI     Rochester P&DF               MN                                           X
44   SE     Lakeland P&DC           FL     Tampa P&DC                   FL                       X
45   SW     Las Cruces PO           NM     El Paso P&DC                 TX                                           X
46   EA     Lima P&DF               OH     Toledo P&DC                  OH                                 X
47   EA     London P&DF             KY     Lexington P&DC               KY                                 X
                                           Santa Ana P&DC & Los
48   PA     Long Beach P&DC         CA     Angeles P&DC                 CA                       X
49   SE     Manasota P&DC           FL     Tampa P&DC                   FL                       X
50   EA     Mansfield Main PO       OH     Akron P&DC                   OH                                           X
51   PA     Marysville P&DF *       CA     Sacramento P&DC              CA          X
52   PA     Marysville P&DF         CA     Sacramento P&DC              CA                                 X
53   SW     McAllen PO              TX     Corpus Christi P&DF          TX                                           X
54   WE     McCook CSMPC            NE     North Platte CSMPC           NE                                           X
            Middlesex-Essex
55   NE     P&DC                    MA     Boston P&DC                  MA                                 X
56   PA     Mojave PO               CA     Bakersfield P&DC             CA          X
                                           Santa Clarita and/or
57   PA     Mojave PO               CA     Bakersfield P&DCs            CA                                 X
58   NY     Monmouth P&DC           NJ     Trenton & Kilmer P&DCs       NJ          X
                                           DVD P&DC & Northern
59   NY     Newark P&DC             NJ     Metro P&DC                   NJ          X
60   EA     New Castle P&DF         PA     Pittsburgh P&DC              PA                                 X
61   NY     Newark PO               NJ     DVD P&DC                     NJ                                 X
62   PA     North Bay P&DC          CA     San Francisco P&DC           CA                                 X
            Northwest Boston
63   NE     P&DC                    MA     Boston P&DC                  MA          X
64   WE     Olympia P&DF            WA     Tacoma P&DC                  WA          X
65   GL     Oshkosh P&DF            WI     Green Bay P&DC               WI                                           X
66   PA     Oxnard P&DF             CA     Santa Clarita P&DC           CA                                 X
67   GL     Palatine P&DC           IL     Carol Stream P&DC            IL                                 X
                                           Santa Clarita & Industry
68   PA     Pasadena P&DC           CA     P&DCs                        CA          X
69   NE     Plattsburgh PO          NY     Burlington P&DC              VT                                           X
70   NE     Portsmouth P&DF         NH     Manchester P&DC              NH                       X
71   NY     Queens P&DC             NY     Brooklyn P&DC                NY                       X
72   GL     Quincy P&DF             IL     Springfield P&DC             IL                                           X
73   GL     Rockford P&DC           IL     Palatine P&DC                IL                                           X
74   CM     Rocky Mount P&DF        NC     Raleigh P&DC                 NC                                 X
75   GL     Saginaw P&DC            MI     Lansing P&DC                 MI                                 X
76   PA     Salinas P&DF            CA     San Jose P&DC                CA                                 X
77   WE     Sheridan CSMPC          WY     Casper P&DF                  WY                                           X
78   WE     Sioux City P&DF         IA     Sioux Falls P&DC             SD                                           X
                                           Fort Lauderdale & Miami
79   SE     South Florida P&DC      FL     P&DCs                        FL                       X
80   EA     Southeastern P&DC       PA     Philadelphia P&DC            PA                                 X
81   NE     Springfield P&DC        MA     Hartford P&DC                CT                                           X
82   SE     St. Petersburg P&DC     FL     Tampa P&DC                   FL          X
83   NY     Staten Island P&DF      NY     Brooklyn P&DC                NY                       X
84   PA     Stockton P&DC           CA     Sacramento P&DC              CA                                 X




                                                                   17
            Status Report on the Postal Service’s Network                                                   EN-AR-10-001
             Rationalization Initiatives



     Area       Losing Facility     State        Gaining Facility        State   Implemented   Approved   Active   Canceled
85   WE     Twin Falls CSMPC        ID      Boise P&DC                   ID                                           X
86   NE     Utica P&DF              NY      Syracuse P&DC                NY                                           X
                                            Fort Worth & Austin
            Waco P&DF
87   SW                             TX      P&DCs                        TX                                           X
88   CM     Waldorf DDC             MD      Southern P&DC                MD                                           X
                                            Southern Connecticut
89   NE     Waterbury P&DF          CT      P&DC                         CT          X
90   NE     Watertown PO            NY      Syracuse P&DC                NY                       X
            Western Nassau
                                            Mid-Island P&DC
91   NY     P&DC                    NY                                   NY                       X
                                            Northern NJ & Kilmer
92   NY     West Jersey P&DC        NJ      P&DCs                        NJ                                 X
93   WE     Wheatland CSMPC         WY      Cheyenne P&DC                WY                                           X
94   EA     Wheeling P&DF           WV      Pittsburgh P&DC              PA                                 X
                                            Scranton & LeHigh Valley
95   EA     Wilkes-Barre P&DF       PA      P&DCs                        PA                       X
96   CM     Winchester PO           VA      Dulles P&DC                  VA                       X
97   WE     Yakima PO               WA      Pasco P&DF                   WA                                           X
98   EA     Zanesville P&DC         OH      Columbus P&DC                OH                                           X
                           TOTAL                                                     13          16        30        39
            * AMP reversed
            November 19, 2007
            Table 5 Abbreviations
            Area                                    Facility
            CM – Capital Metro                      CSMPC – Customer Service Mail Processing Center
            EA – Eastern                            DDC – Delivery and Distribution Center
            GL – Great Lakes                        MPO – Main Post Office
            NE – Northeast                          PO – Post Office
            NY – New York                           P&DC – Processing and Distribution Center
            PA – Pacific                            P&DF – Processing and Distribution Facility
            SE – Southeast
            WE – Western




                                                                    18
Status Report on the Postal Service’s Network               EN-AR-10-001
 Rationalization Initiatives


                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                19
Status Report on the Postal Service’s Network        EN-AR-10-001
 Rationalization Initiatives




                                                20
